                     U.S. ENVIRONMENTAL PROTECTION AGENCY

                     OFFICE OF INSPECTOR GENERAL




                     Chemical Fume Hood
                     Testing Improvements Needed
                     to Reduce Health and Safety
                     Risk to EPA Employees
                     Report No. 13-P-0363                   August 28, 2013




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                               Janet Kasper
                                                   Michael Petscavage
                                                   Melinda Burks
                                                   David Penman
                                                   Bruce Woods




Abbreviations

AI            As Installed
AU            As Used
EPA           U.S. Environmental Protection Agency
FAR           Federal Acquisition Regulation
fpm           feet per minute
NF            not functioning
OAM           Office of Acquisition Management
OIG           Office of Inspector General
RTP           Research Triangle Park
VAV           Variable Air Volume




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  email:     OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue, NW
  fax:       202-566-2599                                       Mailcode 2431T
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                        U.S. Environmental Protection Agency                                                 13-P-0363
                        Office of Inspector General                                                     August 28, 2013




                        At a Glance
Why We Did This Review              Chemical Fume Hood Testing Improvements Needed
In response to a hotline
                                    to Reduce Health and Safety Risk to EPA Employees
complaint, we conducted an
audit of the U.S. Environmental      What We Found
Protection Agency’s acquisition
of chemical fume hood               We found that the EPA complied with applicable regulations and guidance in
retrofitting and testing            procuring both the chemical fume hood retrofit kits and fume hood testing
contracts. Laboratory fume          contracts. The EPA awarded both contracts using competition as opposed to
hoods minimize chemical             using sole source procurement contracting methods. However, the same
exposure to laboratory workers.     subcontractor, operating under the same prime contractor, is performing both the
The fume hoods are                  retrofitting of the chemical fume hoods and the annual testing of the hoods, which
considered the primary means        presents a potential conflict of interest. The agency already completed corrective
of protection from inhalation of    action in response to our preliminary recommendation for this finding.
hazardous vapors, mists and
particulate matter. The             In addition, our technical expert’s review of a sample of testing results for the
objectives of our audit were to     chemical fume hoods raises numerous concerns with the way the testing was
answer the following questions:     performed at the EPA’s Research Triangle Park laboratories. The subcontractor
                                    rated the hoods as pass:
1. Is the EPA complying with
   applicable procurement                When not all of the EPA requirements were met.
   regulations and guidance              When controllers or monitors were not functional.
   regarding its purchases of            When the testing results did not include all required documentation.
   chemical fume hood retrofit
   kits and procurement of fume     The agency’s 2009 testing protocol spells out the criteria for testing and
   hood testing contracts?          evaluating the performance of fume hoods at the EPA’s laboratories, and would
                                    also be applicable to fume hood retrofitting. The EPA relied on the prime
2. Do the chemical fume hood        contractor to ensure the subcontractor’s fume hood testing met all requirements,
   retrofit kits in question meet   and did not retest any of the hoods, without a user’s specific report of a problem.
   applicable safety standards      As a result, the EPA has limited assurance as to the safety of the chemical fume
   and codes?                       hoods, and there is a risk to the health and safety of the laboratory workers.
This report addresses the            Recommendations and Planned Agency Corrective Actions
following EPA Goals or
Cross-Cutting Strategies:           We recommend that the director, National Exposure Research Laboratory,
                                    require the Research Triangle Park Safety, Health and Environmental
  Ensuring the Safety of            Management Office to:
  Chemicals and Preventing
  Pollution.                             Increase oversight and analysis of contractor testing results.
  Strengthening EPA’s
                                         Ensure that when a monitor is reported as not functioning or inaccurate it is
  workforce and capabilities.            timely repaired or replaced.
                                         Establish a practice of retesting a sample of the chemical fume hoods
For further information, contact
                                         annually to verify the subcontractor’s testing results.
our Office of Congressional and          Work to revise and update the EPA’s 2009 testing protocol criteria.
Public Affairs at (202) 566-2391.
                                    The agency agreed to take corrective action for all four recommendations, and
The full report is at:              provided expected completion dates. The agency's proposed corrective actions
www.epa.gov/oig/reports/2013/       and planned completion dates meet the intent of the recommendations.
20130828-13-P-0363.pdf
                        UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                     WASHINGTON, D.C. 20460


                                                                                   THE INSPECTOR GENERAL




                                            August 28, 2013

MEMORANDUM

SUBJECT:       Chemical Fume Hood Testing Improvements Needed
               to Reduce Health and Safety Risk to EPA Employees
               Report No. 13-P-0363

FROM:          Arthur A. Elkins Jr.

TO:            Dr. Jennifer Orme-Zavaleta, Director
               National Exposure Research Laboratory
               Office of Research and Develpoment

This is our report on the subject review conducted by the Office of Inspector General of the
U.S. Environmental Protection Agency. This report contains findings that describe the problems the OIG
has identified and corrective actions the OIG recommends. This report represents the opinion of the OIG
and does not necessarily represent the final EPA position. Final determinations on matters in this report
will be made by EPA managers in accordance with established audit resolution procedures.

In responding to the draft report, the agency provided a corrective action plan for addressing the
recommendations with milestone dates. Therefore, a response to the final report is not required. The
agency should track corrective actions not implemented in the Management Audit Tracking System.
This report will be available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Richard Eyermann, acting
assistant inspector general for the Office of Audit, at (202) 566-0565 or eyermann.richard@epa.gov,
or Janet Kasper, director, Contracts and Assistance Agreements Audits, at (312) 886-3059 or
kasper.janet@epa.gov.
The EPA Should Improve Chemical Fume Hood                                                                                  13-P-0363
Testing Oversight to Reduce Health and Safety Risk




                                   Table of Contents

Chapters
   1     Introduction ......................................................................................................     1

                 Purpose .....................................................................................................   1
                 Background................................................................................................      1
                 Scope and Methodology ............................................................................              3

   2     Potential Conflict of Interest Identified ...........................................................                   5

                 FAR Requires Mitigation of Significant Potential Conflicts ..........................                           5
                 Potential Conflict of Interest Identified ........................................................              5
                 The EPA Did Not Identify the Potential Conflict ..........................................                      6
                 Recommendation and Corrective Action Taken .........................................                            6

   3     Increased Oversight Needed to Ensure Chemical Fume Hood Safety..........                                                8

                 EPA Performance Requirements for Laboratory Fume Hoods ...................                                       8
                 Technical Review Raises Fume Hood Testing Concerns ...........................                                   9
                 The Agency Does Not Independently Retest the Fume Hoods...................                                      11
                 The Agency Has Limited Assurance of Fume Hood Safety ........................                                   12
                 Recommendations .....................................................................................           12
                 Agency Response and OIG Evaluation ......................................................                       12

   Status of Recommendations and Potential Monetary Benefits .............................                                       15



Appendices
   A     Sequence for Conducting AM and AI Performance Tests ............................                                        16

   B     Sequence for Conducting AU Performance Tests ........................................                                   17

   C     Agency Response to Draft Report ..................................................................                      18

   D     Distribution ......................................................................................................     23
                                    Chapter 1
                                    Introduction
Purpose
            In response to a hotline complaint, we conducted a review of the
            U.S. Environmental Protection Agency’s acquisition of two chemical fume hood
            retrofitting and testing contracts related to the EPA’s Research Triangle Park
            laboratories. The objectives of our review were to answer the following questions:

                1. Is the EPA complying with applicable procurement regulations and
                   guidance regarding its purchases of chemical fume hood retrofit kits and
                   procurement of fume hood testing contracts?

                2. Do the chemical fume hood retrofit kits in question meet applicable safety
                   standards and codes?

Background
            Laboratory Fume Hoods

            Laboratory fume hoods minimize chemical exposure to laboratory workers. The
            fume hoods are considered the primary means of protection from inhalation of
            hazardous vapors, mists and particulate matter. Therefore, it is important that all
            potentially harmful chemical work be conducted inside a properly functioning
            fume hood. The EPA operates numerous laboratories across the nation and relies
            upon fume hoods to provide safe working conditions for laboratory workers.

            Figure 1 is a diagram of a typical bench-top fume hood.




            Source: EPA Performance Requirements for Laboratory Fume Hoods.



13-P-0363                                                                                         1
            Hotline Complaint Allegations

            In July 2012, the EPA Office of Inspector General received a hotline complaint
            regarding the EPA’s procurement of chemical fume hood retrofit kits and related
            testing contracts. The complainant initially submitted the complaint in
            March 2012 to a U.S. senator. The complainant stated that the EPA has been
            awarding several hundred thousand dollars in no bid contracts to a contractor for
            chemical fume hood retrofit kits.

            The complainant alleged:

                    The EPA unfairly used the sole source procurement method for the
                    chemical fume hood retrofit kits as well as the fume hood testing
                    contracts.
                    The EPA unfairly allowed the sole source vendor to self-validate its
                    equipment, inconsistent with the EPA’s previous positions requiring
                    third-party independent testing for fume hood projects.
                    The equipment does not meet applicable safety standards and codes.

            Chemical Fume Hood Retrofit Project

            The EPA contracted for the installation of chemical fume hood retrofit kits at its
            RTP facility. The Safety, Health and Environmental Management staff responsible
            for the RTP laboratories are located within the National Exposure Research
            Laboratory organization. The retrofit kits were designed to operate at a lower face
            velocity of 70 feet per minute, versus a conventional fume hood, which operates at
            100 fpm. The reduced flow rate for the retrofitted fume hoods saves on heating and
            air conditioning costs because air in the laboratories is not recirculated. A pilot
            study estimated an annual energy savings of $62,500 per year due to reduced flow
            of air in the fume hoods. The same contractor also subcontracts the required annual
            testing of the chemical fume hoods under a separate contract.
            Figure 2 illustrates the installation of a fume hood retrofit kit (sash handle, baffle, airfoil)
            redesigned to achieve containment at a 30 percent reduction in airflow.




            Source: EPA‐RTP Fume Hood Retrofits – FAQs document.




13-P-0363                                                                                                      2
            While the chemical fume hood retrofit kits are primarily an energy saving
            measure, the hoods must operate properly at the lower flow rates to ensure the
            protection of laboratory workers from contaminants. As the face velocity drops,
            contaminants can leak back at a low concentration from the hood. Because the
            face velocity of a hood can decrease over time for different reasons, the
            Occupational Safety and Health Administration recommends that hoods be
            equipped with a flow monitor to ensure the hood is operating properly.

Scope and Methodology
            We conducted this audit from October 2012 to June 2013 in accordance with
            generally accepted government auditing standards. Those standards require that
            we plan and perform the audit to obtain sufficient, appropriate evidence to
            provide a reasonable basis for our findings and conclusions based on our audit
            objectives. We believe that the evidence obtained provides a reasonable basis for
            our findings and conclusions based on our audit objectives.

            We focused our review on two contracts where the contractor in question is
            performing as a subcontractor. One contract is for the EPA RTP chemical fume
            hood retrofit project (contract no. GS-23F-0225M; task order no. EP09H001115),
            while the other is for the routine annual fume hood certification testing of the RTP
            fume hoods (contract no. EP-D-09-081). We reviewed relevant contracting
            criteria from the Federal Acquisition Regulations to assess whether the EPA
            followed applicable regulations and procedures in procuring both contracts. We
            obtained an understanding of internal controls related to the fume hood testing by
            interviewing program staff and reviewing relevant agency guidance.

            To answer objective 1, we interviewed the contracting officers for both contracts
            reviewed to gain an understanding of the rationale for the procurement method
            used. We also obtained and reviewed relevant contract file documentation.

            To answer objective 2, we interviewed program staff knowledgeable about the
            fume hoods to obtain an understanding of the retrofit project, applicable safety
            standards and codes, internal controls related to the fume hood testing, and
            relevant agency guidance. We obtained and reviewed testing results performed on
            a random sample of 12 retrofitted fume hoods from three different RTP laboratory
            buildings. Specifically, for each of the 12 fume hoods in our sample, we obtained
            and reviewed both the testing results performed immediately after retrofit
            installation as well as the latest routine annual testing results. We also obtained
            assistance from an OIG chemist who holds a Ph.D. with technical expertise and
            experience working with chemical fume hoods in an EPA laboratory to fully
            evaluate those results. Specifically, the assistance entailed performing a technical
            analysis of the results to determine whether the tests were performed in
            accordance with applicable EPA standards, and whether the chemical fume hoods
            meet those standards based on the testing results. The technical expert reviewed




13-P-0363                                                                                       3
                    tests for a total of 76 fume hoods1. The sample reviewed included and expanded
                    upon our original sample of 12 fume hoods. The resulting technical report dated
                    March 20, 2013, was provided to the agency for comment. This technical report is
                    the basis for the finding in chapter 3.




1
    RTP has more than 500 laboratory modules spread across five laboratory buildings.



13-P-0363                                                                                          4
                                   Chapter 2
            Potential Conflict of Interest Identified
            We found that the EPA complied with applicable regulations and guidance in
            procuring both the chemical fume hood retrofit kits and fume hood testing
            contracts. Specifically, the EPA awarded both contracts using competition, as
            opposed to using sole source procurement contracting methods. However, the
            same subcontractor, operating under the same prime contractor for two contracts,
            is performing both the retrofitting of the chemical fume hoods and the annual
            testing of the hoods, which presents a potential conflict of interest. FAR 9.5 states
            that contracting officers shall analyze acquisitions to identify and evaluate
            potential organizational conflicts of interest, and mitigate significant potential
            conflicts. The EPA did not consider that there might be a conflict of interest. As a
            result, there is a risk that the subcontractor could make the annual testing results
            look better by adjusting the results to show increased energy efficiency for the
            retrofitted hood in order to get more retrofitting work.

FAR Requires Mitigation of Significant Potential Conflicts
            The testing contract includes conflict of interest clauses requiring the contractor to
            disclose to the EPA contracting officer any actual or potential conflicts of interest,
            and these requirements also flow down to any subcontracts. The contract also
            requires the contractor to provide annual certifications regarding conflict of
            interest. These contract clauses reference FAR 9.5. The contract for the
            retrofitting of the chemical fume hoods also includes conflict of interest clauses.

            FAR 9.504 states that contracting officers shall analyze planned acquisitions in
            order to:

                   (1) Identify and evaluate potential organizational conflicts of
                   interest as early in the acquisition process as possible; and
                   (2) Avoid, neutralize or mitigate significant potential conflicts
                   before contract award.

            FAR 9.505 states that each individual contracting situation should be examined on
            the basis of its particular facts and the nature of the proposed contract. The
            exercise of common sense, good judgment and sound discretion is required in
            both the decision on whether a significant potential conflict exists and, if it does,
            the development of an appropriate means for resolving it.

Potential Conflict of Interest Identified
            The same subcontractor, operating under the same prime contractor for two
            contracts, is performing both the retrofitting of the chemical fume hoods and the


13-P-0363                                                                                       5
            annual testing of the hoods, which presents a potential conflict of interest.
            A potential conflict of interest exists because the subcontractor who assembled
            and installed the retrofit kits was also conducting the annual testing.

            The EPA has compensating controls in place but does not utilize all of them.
            For example, the agency’s 2009 testing protocol criteria, EPA Performance
            Requirements for Laboratory Fume Hoods, states that the EPA reserves the right
            to double-check the testing of the hoods, but the EPA has chosen not to. Rather, if
            there is a problem with a fume hood, the EPA addresses it at that time with
            testing/troubleshooting. For the annual certifications, the on-site prime contractor
            reviews the subcontractor’s work. One compensating control is that the fume
            hoods are all required to be equipped with monitors, sensors and alarms, which
            should alert laboratory personnel if there is a safety problem.

The EPA Did Not Identify the Potential Conflict
            The contractor did not notify the EPA of the potential conflict of interest. In
            addition, the EPA’s 2009 testing protocol criteria does not address whether the
            same contractor can perform the installation of the retrofit kits as well as the
            annual testing. EPA officials believed it was a good idea to have the contractor do
            the testing rather than the EPA, and did not consider that there might be a conflict
            of interest.

            The potential conflict of interest creates a risk that the subcontractor could make
            the testing results look better in order to get more retrofitting work. For example,
            if testing results show increased energy efficiency for retrofitted hoods, the EPA
            would be more likely to increase the number of retrofits it requests the contractor
            to perform.

Recommendation and Corrective Action Taken
            In a preliminary finding outline issued to the agency, we recommended that the
            assistant administrator for the Office of Administration and Resources
            Management, in accordance with FAR 9.5, require the EPA contracting officers
            for both the retrofitting of the chemical fume hoods and the routine annual testing
            of the hoods to analyze the situation to determine whether a significant conflict of
            interest exists, and if so, establish controls as necessary to mitigate the risk.

            In its response to our finding outline, the agency analyzed the situation and stated
            that as the work being performed under each contract has no impact or affect on
            the other, and since contractor performance on each task is easily objectively
            confirmed and monitored by the EPA, the contractor saw no conflict of interest
            with these tasks, and the EPA concurs.

            The agency’s response also stated the following:



13-P-0363                                                                                          6
                   With regard to internal Office of Acquisition Management
                   requirements management, while the primary intent of the Centers
                   of Expertise Study is to identify both organizational and process
                   improvements to increase procurement quality and efficiency,
                   OAM anticipates another outcome of such improvements will be
                   better alignment of these types of similar and related requirements
                   among the EPA contracting offices. Accordingly, if requirements
                   such as chemical fume hood retrofit and testing are better planned
                   and coordinated, OAM will be better positioned and able to
                   recognize and address such potential appearances of conflict of
                   interest. As a result of implementing this new acquisition process,
                   as well as the Balanced Scorecard self-assessment and peer review
                   oversight programs, OAM believes the guidance and processes are
                   in place to address and manage such situations in the future.

            In response to our recommendation, the EPA analyzed the situation and
            determined a significant conflict of interest did not exist. In accordance with
            FAR 9.5, this determination involves contracting officer judgment. Therefore, the
            agency’s action addressed the recommendation, and we consider the corrective
            action completed.




13-P-0363                                                                                   7
                                  Chapter 3
            Increased Oversight Needed to Ensure
                 Chemical Fume Hood Safety
            Our technical expert’s review of a sample of chemical fume hood testing results
            raises numerous concerns with the way the testing was performed on the EPA
            RTP chemical fume hoods. For example, the subcontractor rated the hoods as pass
            when not all of the EPA requirements were met or when controllers or monitors
            were not functional. The testing results did not include all required
            documentation, and the EPA’s testing protocol document did not include
            appropriate criteria for the fume hood retrofits. The agency’s 2009 testing
            protocol spells out the criteria for testing and evaluating the performance of fume
            hoods at the EPA’s laboratories, and would also be applicable to fume hood
            retrofitting. The EPA relied on the prime contractor to ensure the subcontractor’s
            fume hood testing met all of the requirements, and did not retest any of the hoods
            without the prompting of a user’s specific report of a problem. As a result, the
            EPA has limited assurance as to the safety of the chemical fume hoods, and there
            is a risk to the health and safety of the laboratory workers.

EPA Performance Requirements for Laboratory Fume Hoods
            The agency’s 2009 testing protocol criteria, EPA Performance Requirements for
            Laboratory Fume Hoods, spells out the criteria for testing and evaluating the
            performance of fume hoods at the EPA’s laboratories. These requirements are
            also applicable to fume hood retrofitting. The EPA operates numerous
            laboratories across the nation and relies upon fume hoods to provide safe working
            conditions. In addition to As Manufactured Performance tests, this document
            includes criteria for the following types of tests:

                   As Installed tests, which the fume hood manufacturer or a third-party,
                   independent testing agency conducts immediately following installation
                   and after the testing and balancing report has been reviewed by the EPA’s
                   Safety, Health and Environmental Management Division. These tests:
                   (1) verify proper performance integration with mechanical heating,
                   ventilating and air conditioning systems; and (2) establish a benchmark for
                   the performance of the fume hood system. These AI tests also apply to the
                   retrofitted fume hoods, and are performed immediately following the
                   retrofitting.

                   As Used tests, which EPA laboratory personnel or qualified contractors
                   conduct annually to ensure long-term sustainable performance of the fume
                   hood systems. These tests verify the continued long-term performance of
                   the fume hood system.



13-P-0363                                                                                    8
            The EPA’s 2009 testing protocol includes multiple criteria for both the AI and
            AU tests, such as:

                   Differential Pressure and Temperature Test.
                   Cross-Draft Velocity Test.
                   Face Velocity Test.
                   Hood Monitor Test.
                   Dynamic Variable Air Volume Response and Stability Test.
                   Airflow Visualization (smoke) Test.
                   Tracer Gas Containment with Manikin Test (not required for AU tests).
                   Sash Movement Effect or VAV Tracer Gas Containment Test.

            The document states that the results of each test shall be recorded on the EPA’s
            performance test data sheets or equivalent. The EPA reserves the right to verify
            calibration of test equipment, photograph or videotape the tests, or take
            independent measurements before, during or after the routine tests.

            See appendix A and B for diagrams illustrating the sequence of conducting the
            performance tests.

Technical Review Raises Fume Hood Testing Concerns
            Our technical expert’s review of a sample of chemical fume hood testing results
            raises numerous concerns with the way the testing was performed on the EPA
            RTP chemical fume hoods, which are outlined in the resulting technical report
            dated March 20, 2013. For example:

                   The subcontractor rated the hoods as pass when not all of the EPA’s
                   requirements were met.
                   The subcontractor rated the hoods as pass when controllers or monitors
                   were not functional.
                   The testing results did not include all required documentation.
                   The EPA’s testing protocol document did not include criteria for hoods
                   operating at average face velocities of 70 fpm, which is the design face
                   velocity for the retrofit kits.

            Hoods Rated as Pass When Not All EPA Requirements Met

            The contracts require the fume hoods to be certified in accordance with the EPA
            Performance Requirements for Laboratory Fume Hoods document, which lists
            several requirements. However, based on the technical review of a sample of
            testing results for both the AI testing of the retrofit kits and the AU annual testing,
            the subcontractor rated the hoods as pass when not all criteria or requirements
            from the EPA’s 2009 testing protocol document were met.




13-P-0363                                                                                         9
              Based on the retrofitted and annual hood test reports reviewed, the hoods failed
              some of the requirements the EPA has established in their testing procedures,
              such as lab differential partial pressures not met, cross-draft velocity not met, and
              face velocity not met. Overall, the technical expert’s review found one or more
              deviations for 71 out of 76 fume hoods tested. Therefore, about 93 percent of the
              fume hoods rated as pass did not meet all criteria or requirements from the EPA’s
              2009 testing protocol document.

              Hoods Rated as Pass When Controllers or Monitors Not Functional

              Based on the technical review of a sample of testing results for both AI and AU
              tests, the subcontractor rated the hoods as pass when the VAV controllers or fume
              hood monitors were reported as not functioning. For example:

                       All of the retrofitted chemical fume hoods did pass the tracer gas
                       containment test, even though the subcontractor reported hood monitors
                       and some VAV controllers as NF. The hood monitor is the primary
                       feedback mechanism to the users regarding the safety of the hood. If the
                       monitor is NF, this important control is useless.

                       The EPA requires accurate hood flow monitors, but in the annual test
                       reports, the subcontractor reported hood monitors as being unplugged, NF,
                       or the flow rate on the monitor did not accurately measure the flow of air
                       in the hood. After installation testing and acceptance, the hood flow
                       monitor is the primary indicator to laboratory workers that the fume hood
                       is working properly. In one example, the hood monitor read a flow of
                       102 fpm but the measured flow was only 35 fpm. Although the
                       subcontractor correctly rated the hood as Fail in this case, this raises a
                       concern about how long this hood monitor, with its inaccurate reading,
                       was providing a false sense of security to the laboratory staff who may
                       have needed to use this fume hood.

              Overall, the technical expert’s review found one or more deviations for 44 out of
              76 fume hoods tested. Therefore, about 58 percent of the fume hoods rated as pass
              had VAV controllers or fume hood monitors that were reported as NF.

              Table 1 illustrates the deviations discussed above for hoods rated as pass when
              not all EPA requirements were met and when controllers or monitors were not
              functional.

            Table 1: Deviations identified by technical review
                                                           Number of fume   Number of     Deviation
                      Hoods passed when:                    hoods tested    deviations   percentage
             Not all requirements met                              76          71           93
             Controllers or monitors not functional                76          44           58
            Source: Technical review of a sample of testing results.




13-P-0363                                                                                         10
                 Testing Results Missing Required Documentation

                 According to the technical analysis, the testing results did not include all
                 documentation required by the EPA’s 2009 testing protocol document. Based
                 upon the documents provided for review, the tracer gas manikin tests were passed
                 for the retrofitted fume hoods, but the subcontractor presented insufficient
                 information to verify if the sash movement2 effect test with tracer gas was
                 acceptable. In addition, the EPA requires calibration information for all test
                 equipment to be included with each testing report. However, calibration
                 information could not be located in the reports for the following equipment:

                          Micromanometer used to measure differential pressures.
                          Smoke generator.
                          Tracer gas sensor.
                          Data logger/computer used to acquire flow measurements.

                 EPA’s Testing Protocol Document Did Not Include
                 Appropriate Criteria for Retrofits

                 The EPA Performance Requirements for Laboratory Fume Hoods document
                 includes criteria for chemical fume hoods operating at an average face velocity of
                 100 fpm for typical chemical fume hoods, and 60 fpm for low-velocity chemical
                 fume hoods. However, it does not include specific criteria for fume hoods or the
                 retrofit kits operating at an average face velocity of 70 fpm, which is the design
                 face velocity for the retrofit kits. The EPA testing protocol document should be
                 updated with criteria for chemical fume hoods operating at an average face
                 velocity of 70 fpm.

The Agency Does Not Independently Retest the Fume Hoods
                 The EPA relied on the prime contractor to ensure the subcontractor’s fume hood
                 testing met all requirements, and did not retest any of the hoods, without a user’s
                 specific report of a problem. Safety, Health and Environmental Management
                 Division personnel also stated that the retrofits “got ahead of them” when trying
                 to order appropriate hood monitors for the retrofits. Safety, Health and
                 Environmental Management Division staff stated that all chemical fume hoods are
                 required to be equipped with monitors, sensors and alarms, which would alert
                 laboratory personnel if there is a safety problem. The agency relied on this
                 compensating control to help ensure safety of the fume hoods.




2
 The sash movement effect test is conducted to determine the potential for escape from the hood following
movement of the sash from closed to open.



13-P-0363                                                                                                   11
The Agency Has Limited Assurance of Fume Hood Safety
            The EPA has limited assurance as to the safety of the chemical fume hoods.
            Agency safety personnel are relying on the compensating control of the monitors
            alerting staff to problems, but we found this is not a reliable control because of the
            monitors being not functional or inaccurate. In addition, for one fume hood, a
            testing report stated that a hood monitor needed to be installed; however, a
            subsequent test report indicated the monitor still had not been installed 10 months
            later. Therefore, there is a risk to the health and safety of the laboratory workers.

            In light of this risk, it would be a good internal control and business practice for
            the EPA to retest some of the hoods periodically, in order to protect the
            government’s interests. Such retesting would verify the subcontractor’s testing
            results to ensure the hoods meet all applicable standards, as allowed for by the
            EPA’s testing protocol criteria.

Recommendations
            We recommend that the director, National Exposure Research Laboratory, require
            the RTP Safety, Health and Environmental Management Office, to:

               1. Increase oversight and analysis of contractor testing results to ensure that
                  all the EPA’s requirements are met when a hood is rated as pass, and that
                  all the EPA’s required documentation is included.

               2. Take steps to ensure that when a monitor is reported as not functioning or
                  inaccurate it is timely repaired or replaced as necessary.

               3. Establish a practice of retesting a sample of the chemical fume hoods
                  annually to verify the subcontractor’s testing results.

               4. Work with the Safety, Health and Environmental Management Division at
                  headquarters to revise and update the EPA’s 2009 testing protocol criteria,
                  EPA Performance Requirements for Laboratory Fume Hoods, to add
                  criteria for chemical fume hoods operating at an average face velocity of
                  70 fpm, which is the design face velocity for the retrofit kits.

Agency Response and OIG Evaluation
            In response to recommendation 1, the agency stated it will ensure all health and
            safety requirements are met, and that the RTP Safety, Health and Environmental
            Management Office will continue to provide feedback to the facilities engineering,
            operations and maintenance staff when an EPA energy efficiency requirement or
            other requirements are not met. The RTP campus has multiple laboratories
            undergoing renovation to accommodate a move of personnel from the
            consolidation of another building expected to be vacated in April 2014. Any fume


13-P-0363                                                                                          12
                  hoods installed will be commissioned, with attention to complete documentation as
                  the laboratory is inspected for occupancy and usage. All fiscal year 2013 data to
                  date will be re-examined for completeness. The expected completion date to ensure
                  complete documentation for fiscal year 2013 fume hood annual testing is
                  August 30, 2013.

                  In response to recommendation 2, the agency stated that when a fume hood’s face
                  velocity monitor is reported as not functioning, as a temporary measure, a
                  vaneometer will be issued to the laboratory occupants to visually verify adequate
                  face velocity flow rates. At the RTP main campus, buildings A and B have had all
                  the non-functioning monitors repaired or replaced. Non-functioning monitors in
                  buildings D, E and the High Bay building are being prioritized based on laboratory
                  utilization and future occupants. The expected completion date for replacement of
                  any non-functioning monitors is September 30, 2013.

                  In response to recommendation 3, the agency proposed retesting one fume hood
                  from each building within 30 days of delivery of passing fume hoods in a given
                  building. If the random fume hood fails reinspection, two additional fume hoods
                  from the building batch submitted as passed will be retested. The estimated
                  completion date for retesting building by building random fume hoods is July 2014.

                  In response to recommendation 4, the agency stated that since revision to the
                  EPA’s testing protocols is the responsibility of the Safety, Health and
                  Environmental Management Division at headquarters, which is in the Office of
                  Administration and Resources Management, the agency suggested recommendation
                  4 be reassigned to the Director of the Safety, Health and Environmental
                  Management Division.3 The consensus decision with the details on how to annually
                  recertify fume hoods operating at 70 fpm for retrofitted fume hoods can reasonably
                  be expected to be in place prior to the RTP campus annual fume hood
                  recertification cycle which begins in fiscal year 2014. The estimated completion
                  date for revising the testing protocols is October 31, 2013.

                  As a general narrative comment, the agency stated it disagrees with the assertion
                  that the agency has “limited assurances of fume hood safety”, as stated on page 12
                  of the draft audit report. The agency outlined various controls in place, and stated
                  its back-up practices do not show exposure above action levels or health effects.
                  Nevertheless, the agency recognized that the fume hoods are the primary
                  engineering control used to minimize exposure and will receive improved oversight
                  as outlined in the agency's responses to the recommendations.

                  The agency agreed to take corrective action in response to all four
                  recommendations, and provided expected completion dates for all corrective

3
  Since the Director, National Exposure Research Laboratory, agreed to work with the Office of Administration and
Resources Management, Safety, Health and Environmental Management Division on this recommendation we did
not change the action official. We did speak with staff that are revising the testing protocol criteria and they plan to
incorporate the recommendation into the revision.


13-P-0363                                                                                                             13
            actions. The agency's proposed corrective actions and planned completion dates
            meet the intent of the recommendations. The complete agency response to the draft
            audit report is attached at appendix C.




13-P-0363                                                                                 14
                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                                 POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                               BENEFITS (in $000s)

                                                                                                                     Planned
    Rec.    Page                                                                                                    Completion   Claimed    Agreed-To
    No.      No.                          Subject                           Status1         Action Official            Date      Amount      Amount

     1       12     Require the RTP Safety, Health and Environmental          O       Director, National Exposure    8/30/13
                    Management Office to increase oversight and                          Research Laboratory
                    analysis of contractor testing results to ensure that
                    all the EPA’s requirements are met when a hood is
                    rated as pass, and that all the EPA’s required
                    documentation is included.

     2       12     Require the RTP Safety, Health and Environmental          O       Director, National Exposure    9/30/13
                    Management Office to take steps to ensure that                       Research Laboratory
                    when a monitor is reported as not functioning or
                    inaccurate it is timely repaired or replaced as
                    necessary.

     3       12     Require the RTP Safety, Health and Environmental          O       Director, National Exposure    7/31/14
                    Management Office to establish a practice of                         Research Laboratory
                    retesting a sample of the chemical fume hoods
                    annually to verify the subcontractor’s testing
                    results.

     4       12     Require the RTP Safety, Health and Environmental          O       Director, National Exposure    10/31/13
                    Management Office to work with the Safety, Health                    Research Laboratory
                    and Environmental Management Division at
                    headquarters to revise and update the EPA’s 2009
                    testing protocol criteria, EPA Performance
                    Requirements for Laboratory Fume Hoods, to add
                    criteria for chemical fume hoods operating at an
                    average face velocity of 70 fpm, which is the
                    design face velocity for the retrofit kits.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is unresolved with resolution efforts in progress




13-P-0363                                                                                                                                          15
                                                                                                        Appendix A

Sequence for Conducting AM and AI Performance Tests
    Conduct Inspections       Laboratory Hood            Test Laboratory        Ventilation System



                                              Velocity Probes
     Verify Instrument                        Pressure Meter
  Function and Calibration                   Flow Sensor
                                    Tracer Gas Detector and Ejector



                                   Establish Test Configuration
    Conduct Hood Tests
                                Sash Opening, Baffle Setting, etc.




            Test Procedures    Measure Cross Draft Velocities
                                    (Exhaust Fan On)



                                                          NO                    Adjust
                                           Acceptable
                                                                       Supply/Diffuser Flow
                                       YES



                                   Measure Face Velocity




                                                                           Analyze and Adjust
                                 Measure Exhaust Flow and
                                                                       (flow, baffles, bypass, etc.)
                                   Hood Static Pressure




                                           Acceptable
                                                         NO


                                    YES


                               Conduct VAV Response and
                               Stability Tests (if applicable)



                                                          NO
                                         Acceptable                        Adjust/Tune Controls


                                     YES



                                  Conduct Smoke                   Conduct Static Sash                   Conduct VAV
                                      Tests                         Tracer Gas Test                    Tracer Gas Test


 Source: EPA Performance Requirements for Laboratory Fume Hoods.


13-P-0363                                                                                                            16
                                                                  Appendix B

     Sequence for Conducting AU Performance Tests




Source: EPA Performance Requirements for Laboratory Fume Hoods.




13-P-0363                                                                 17
                                                                                     Appendix C

                   Agency Response to Draft Report
                                          July 25, 2013

MEMORANDUM

SUBJECT:       Response to “The EPA Should Improve Chemical Fume Hood Testing Oversight to
               Reduce Health and Safety Risk” || OA-FY-13-0013 Dated June 25, 2013 (506 KB)

FROM:          Jennifer Orme-Zavaleta, PhD
               Director, National Exposure Research Laboratory
               Mail Code D305-01

TO:            Richard Eyermann
               Acting Assistant Inspector General for Audit

               Janet Kasper
               OIG, Office of Audit
               Director, Contracts and Assistance Agreement Audits


The purpose of this memorandum is to respond to the draft report transmitted in the e-mail sent
by Janet Kasper on June 25, 2013 entitled: “The EPA Should Improve Chemical Fume Hood
Testing Oversight to Reduce Health and Safety Risk.” This response is provided in accordance
with EPA Manual 2750. Specific recommendations are individually addressed as enumerated in
the report. No specific enumerated findings were found in the draft report, therefore, a general
response to the draft report’s question about health and safety risk will be addressed in a
narrative.

For reference, the four recommendations appearing on page 12 of the report are reiterated before
each response.

Recommendation:
1. Increase oversight and analysis of contractor testing results to ensure that all the EPA’s
   requirements are met when a hood is rated as pass, and that all the EPA’s required
   documentation is included.

Response 1: The EPA-RTP SHEM office will ensure all legal Health and Safety requirements
are met. The EPA-RTP SHEM office will continue to provide feedback to the facilities
engineering, operations and maintenance staff when an EPA energy efficiency requirement or
other requirements are not met. Some of EPA’s internal requirements, such as the operation of a
variable air volume (VAV) box do not jeopardize safety and are only necessary to optimize
energy conservation and efficiency. A VAV control box which is not functioning in the variable
mode is essentially a constant air volume valve maintaining a set-point for exhaust. In order for


13-P-0363                                                                                       18
the fume hood to pass annual testing, a VAV box set to a constant flow would have to be set to
the flow rate demanded by an “as used” chemical fume hood condition. Additionally, some
fume hoods can fail EPA’s requirement tolerances for cross drafts but pass face velocity
averages and demonstrate capture and containment when challenged with a smoke test as part of
the annual recertification testing.

Please be advised the EPA-RTP campus has multiple laboratories undergoing renovation to
accommodate a move of personnel from the consolidation of another building expected to be
vacated in April 2014. Any fume hoods installed will be commissioned, with attention to
complete documentation as the laboratory is inspected for occupancy and usage. All FY 2013
data to date will be re-examined for completeness. The main omission found previously was
calibration data for the contractor’s instrumentation used to make measurements of the fume
hoods. The contractor is required to provide instrument calibration data with each monthly or
periodic report. They may have in some instances provided the instrument calibration data with
a prior deliverable and failed to include it with subsequent submittals. Therefore, when a batch
of fume hoods in a specific building location is completed as they are scheduled on a rolling
basis to manage work flow, the instrument calibration documentation for the batch of fume
hoods certified by the instruments for each building will be included with each batch of fume
hoods tested. This will result in some duplication of documentation in the annual fume hood
certification but allows each buildings report to stand alone as a complete documentation
package.

Expected completion date to ensure complete documentation for FY2013 fume hood annual
testing: August 30, 2013.

Recommendation:
2. Take steps to ensure that when a monitor is reported as not functioning or inaccurate it is
   timely repaired or replaced as necessary.

Response 2: When a fume hood’s face velocity monitor is reported as not functioning, as a
temporary measure, a vaneometer will be issued to the laboratory occupants to visually verify
adequate face velocity flow rates. EPA requirements are for a visual and audible alarm. No
regulatory requirement exists for an audible alarm. Laboratory occupants are trained to report
fume hood performance deficiencies or suspected malfunctions. Face velocity monitors are
important and do serve as the primary indicator to laboratory workers that a chemical fume hood
is working correctly. When face velocity monitors are not functioning and the fume hood is
providing capture and containment, interim procedures allow researchers to use a portable
vaneometer and/or have the EPA-RTP SHEM office perform “on demand” checks for any
chemical fume hood prior to daily usage. Without these interim measures, research work would
have to be suspended interrupting work when the fume hood is otherwise fully operational. At
the EPA-RTP main campus, buildings A and B have had all the non functioning monitors
repaired or replaced. Non functioning monitors in building D, E and the High Bay building are
being prioritized based on laboratory utilization and future occupants. Please recall that multiple
laboratories are under renovation in building D and E and therefore, not every fume hood is in an
occupied laboratory during the renovation/construction phase.
Expected completion for replacement of any non functioning monitors: September 30, 2013.



13-P-0363                                                                                        19
Recommendation:
3. Establish a practice of retesting a sample of the chemical fume hoods annually to verify the
   subcontractor’s testing results.

Response 3: Currently the EPA-RTP SHEM Office personnel routinely respond to chemical
fume hood trouble calls or other deviations in ventilation controls to assess safe operations. A
performance work statement and quality assurance monitoring requirement with penalty fees
could establish acceptable sample sizes in future contracts.

A question exists as to how much retesting is required to demonstrate statistical significance?

The RTP-SHEM office proposes retesting one fume hood from each building within 30 days of
delivery of ‘passing’ fume hoods in a given building. If the random fume hood fails re-
inspection, two additional fume hoods from the building batch submitted as passed will be
retested.

Expected Completion: As this will be a new practice, completion will occur with the next set of
annual fume hood re-certifications beginning in FY 2014 where the current cycle completes all
campus building fume hoods by the following June 2014.

Estimated Completion of re-testing building by building random fume hoods: July 2014.

Recommendation:
4. Work with the Safety, Health and Environmental Management Division at headquarters to
   revise and update the EPA’s 2009 testing protocol criteria, EPA Performance Requirements
   for Laboratory Fume Hoods, to add criteria for chemical fume hoods operating at an average
   face velocity of 70 fpm, which is the design face velocity for the retrofit kits.

Response 4: The actual performance standard for retrofitted fume hoods applied at the EPA-
RTP campus was the same as for any other fume hood, namely an onsite ASHRAE 110 test
confirming containment performance of an average tracer gas concentration of less than or equal
to 0.1 ppm. Before the retrofitted fume hoods were ‘delivered’ as operational the ASHRAE 110
test was performed on every retrofitted fume hood under the EPA RTP chemical fume hood
retrofit project (contract no. GS-23F-0225M; task order no. EP09H001115.)

Revision to EPA’s testing protocols for an average face velocity of 70 fpm is the responsibility
of the Safety, Health and Environmental Management Division (SHEMD) at Headquarters which
is in OARM/Office of Administration. Therefore, I suggest this fourth recommendation be re-
assigned to the Director, Safety, Health and Environmental Division who is better positioned to
address EPA’s 2009 testing protocol criteria. As a combined EPA-OARM and EPA-ORD
facility at the RTP North Carolina campus, the RTP SHEM office commits to work with
SHEMD at Headquarters to provide review and comment for any updated testing protocols for
retrofitted chemical fume hoods to explicitly state ASHRAE 110 testing for newly installed or
retrofitted fume hoods. The RTP-SHEM office understands the SHEMD HQ is currently
revising its 2009 testing protocols. Therefore the consensus decision with the details on how to



13-P-0363                                                                                          20
annually recertify fume hoods operating at 70 fpm for retrofitted fume hoods can reasonably be
expected to be in place prior to the EPA-RTP campus annual fume hood recertification cycle
which begins in FY 2014.

At the EPA-RTP campus, I disagree with the assertion the Agency has “limited assurances of
fume hood safety” as stated on page 12 of the report. The facility has two full time Federal
industrial hygienists who can perform on demand fume hood verification testing and additional
chemical specific monitoring. The research staff community at the RTP campus is one of the
most highly trained. Researchers are constantly evaluating environmental and health effects
from various toxicants. This same research staff has a keen focus on their own individual work
place exposure. The training delivered initially and on an annual basis to research staff
communicates the correct usage of fume hoods and when to suspect a malfunction. The RTP’s
campus Chemical Hygiene Plan further classifies laboratories according to the risk posed by the
chemicals used in each laboratory setting and requires additional levels of personal protective
equipment in addition to engineering controls in higher hazard level laboratories. Finally,
personnel are enrolled in the occupational medical surveillance program to monitor their fitness
for duty, potential exposures and health effects. All these back-up practices do not show
exposure above action levels or health effects. Nevertheless, the fume hoods are the primary
engineering control used to minimize exposure and will receive improved oversight as outlined
in my responses.

Thank you for the opportunity to respond to the report.

Should you have any questions, please contact Jewel Morris, ORD’s designated Safety Health
and Environmental Management Official at 919-541-2292; morris.jewel@epa.gov or Todd
Baker, Acting Director ORD Safety, Health and Environmental Management at 919-541-4307;
baker.todd@epa.gov.

Summary of Planned Actions
                                                                                                  Planned
Rec.                                            Action                                           Completion
No.                                                                                                 Date
  1    Ensure complete documentation for FY2013 fume hood annual testing.                        Aug. 30, 2013
  2    Replacement of any non functioning monitors.                                              Sep. 30, 2013
  3    Re-testing building by building random fume hoods.                                        Jul. 31, 2014
       (As this will be a new practice, completion will occur with the next set of annual fume   (Begins FY
       hood re-certifications beginning in FY 2014 where the current cycle completes all         2014)
       campus building fume hoods by the following June 2014.)
  4    Review and comment for any updated testing protocols for retrofitted chemical fume        Oct. 31, 2013
       hoods in coordination with SHEMD-HQ.




CC:      Jewel F. Morris
         Todd Baker
         Wesley Carpenter



13-P-0363                                                                                                   21
        Howard Wilson
        Dave Gibson
        John Bashista
        Lisa Maass
        Bruce Woods
        Melinda Burks
        Michael Petscavage




13-P-0363                    22
                                                                                Appendix D

                                    Distribution
Office of the Administrator
Director, National Exposure Research Laboratory, Office of Research and Development
Principal Assistant Deputy Administrator, Office of Research and Development
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Director, Office of Acquisition Management, Office of Administration and
       Resources Management
Director, Facilities Management and Services Division, Office of Acquisition Management,
       Office of Administration and Resources Management
Audit Follow-Up Coordinator, Office of Research and Development




13-P-0363                                                                                  23
